APPLICATION AND
SOLICITATION
DISCLOSURE
VISA/STANDARD MASTERCARD

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa

15.90%
Standard Mastercard

12.90%
APR for Balance Transfers

APR for Cash Advances

Visa
15.90%
Standard Mastercard
12.90%
Visa
17.90%
Standard Mastercard
17.90%

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
If you are charged interest, the charge will be no less than $0.50.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
None
$10.00 or 3.00% of the amount of each cash advance, whichever is greater
1.00% of each transaction in U.S. dollars
Up to $25.00
Up to $28.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases and balance transfers) (including new cash
advances)."
Minimum Interest Charge:
The minimum interest charge will be charged on any dollar amount.
Effective Date:
The information about the costs of the card described in this application is accurate as of: October 1, 2020
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03105847-MXC10-P-1-052920 (MXC101-E)

This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa and Standard Mastercard are secured credit cards. Credit extended under this
credit card account is secured by various personal property and money including, but not limited to: (a) any
goods you purchase with this account, (b) any shares you specifically pledge as collateral for this account on a
separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union
excluding shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods when
you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are three or more days late in making a
payment.
Cash Advance Fee (Finance Charge):
$10.00 or 3.00% of the amount of each cash advance, whichever is greater.
Returned Payment Fee:
$28.00 or the amount of the required minimum payment, whichever is less.

Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03105847-MXC10-P-1-052920 (MXC101-E)

